No. 20-5852

In the

Supreme Court of the United States

ROBERT LOUIS BRANDON,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit
CERTIFICATE OF SERVICE
NELSON S. EBAUGH, a member of the Bar of this Court and appointed under
the Criminal Justice Act, certifies that, pursuant to Rule 29.5, he served the Reply
Brief for Petitioner on counsel for the Respondent (1) by mailing, on November 6,
2020, a copy of this document (via first-class United States mail, postage prepaid) to:
Solicitor General of the United States
Room 5616, Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530- 0001
and also (2) by sending, on November 6, 2020, the said document via electronic mail
to the Office of the Solicitor General at the following e-mail address:
1

SupremeCtBriefs@USDOJ.gov. He certifies that all parties required to be served
have been served.
Nelson S. Ebaugh

2

